No. 19-309

 

 

IN THE

Supreme Court of the United States

GOVERNOR OF DELAWARE,

Petitioner,
v.

JAMES R. ADAMS,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF FOR FORMER GOVERNORS OF
THE STATE OF DELAWARE AS AMICI CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,000 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 7, 2019.

 

Wilson-Epes Printing Co., Inc.
